I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

R O S S, B E NJ A MI N
P etiti o n er
vs.

N o:

2 0- 8 1 8 0

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
J u n e 0 9, 2 0 2 1
c c:
B
P
F
P
B

E NJ A MI N R O S S
RI S O N E R N O. 6 0 7 4 3- 0 6 0
CI
O B O X 8000
R A D F O R D, P A 1 6 7 0 1

